Oversight Review              March 19, 2008


     Report on Quality Control Review of
           FY 2006 Single Audit of
       Logistics Management Institute

          Report No. D-2008-6-003
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Office of
  Inspector General of the Department of Defense at www.dodig.mil/audit/reports or
  contact the Office of the Assistant Inspector General for Audit Policy and
  Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-
  8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCAA          Defense Contract Audit Agency
GAS           Government Auditing Standards
LMI           Logistics Management Institute
OMB           Office of Management and Budget
PwC           PricewaterhouseCoopers, LLP
Findings
Finding A. Contracts Selected for the Compliance Audit of Federal Awards. The PwC
auditors’ sample selection for compliance testing included fixed price contracts. Fixed price
contracts are not identified as Federal awards under OMB Circular A-133, therefore, are not
subject to the compliance audit. OMB Circular A-133 defines Federal awards as federal
financial assistance and federal cost reimbursement contracts that auditees receive directly from
federal awarding agencies or indirectly from pass-through entities. Our review found that 8 of
the 27 contracts selected by PwC for testing were fixed price contracts. More specifically, 17 of
the 110 payroll and disbursement transactions selected for testing came from fixed price
contracts. Because there were a sufficient number of transactions from cost-type contracts, we
determined that there was no impact to the overall quality of the FY 06 single audit. However, it
could potentially impact future single audits if PwC continues this audit approach particularly
with clients that have a large number of fixed price contracts.

Finding B. Review of Major Federal Program. The PwC auditors did not perform adequate
audit procedures for the Subrecipient Monitoring and Special Tests and Provisions compliance
requirements for the FY 06 single audit.

        Subrecipient Monitoring Compliance Requirement. The PwC auditors did not
perform audit procedures related to internal controls and compliance because they
inappropriately determined that the Subrecipient Monitoring compliance requirement was not
applicable. The determination was based on their interpretation of the OMB A-133
characteristics for distinguishing between a vendor versus subrecipient relationship. Based on
our discussions with LMI management and review of supporting documentation, we determined
that LMI has subrecipients. According to the OMB Circular A-133, a subrecipient is a
non-Federal entity that expends Federal awards received from a pass-through entity to carry out a
Federal program. For FY 06, we identified at least three non-profit organizations (Battelle
Memorial Institute, Concurrent Technologies Corporation, and South Carolina Research
Authority) that received pass-through funds from LMI to carry out research and development
award objectives and should be considered subrecipients. The three non-profit organizations
filed OMB Circular A-133 reports and reported the pass-through funds received from LMI on
their Schedule of Expenditures of Federal Awards. Of the $13 million in subcontract support for
FY 06, the three non-profit organizations received $207,278 from LMI. Therefore, we believe
that noncompliance with the requirement would not have a material effect on the major program
and not negatively impact the overall FY 06 audit. However, PwC needs to perform additional
audit procedures to determine the applicability and materiality of the Subrecipient Monitoring
compliance requirement and perform the appropriate audit procedures related to internal controls
and compliance in future audits.

        Special Tests and Provisions Compliance Requirement. The PwC auditors did not
obtain an understanding or test internal controls for the Special Tests and Provisions compliance
requirement related to key personnel and the compliance testing was limited to verbal inquiries.
Based on their verbal inquiries with the project managers of 4 contracts, the auditors documented


                                                2
1 contract where key personnel was replaced with Federal awarding agency approval. The
auditors also documented that since LMI works closely with the Federal awarding agencies and
that approvals are often made orally they determined that no further testing was deemed
necessary. However, there was no evidence of audit procedures performed to verify the
assertions made by the project manager. As a result, there is no assurance that LMI is in
compliance with the Special Tests and Provisions compliance requirement related to key
personnel. However, based on our analysis, we believe that noncompliance with the
requirement would not have a material effect on the major program and, therefore, not negatively
impact the overall FY 06 audit. Nevertheless, PwC needs to perform additional audit procedures
to determine the applicability and materiality of the Special Tests and Provisions compliance
requirement and perform the appropriate audit procedures related to internal controls and
compliance in future audits.

Recommendations, Management Comments, and
OIG DoD Response
   1. We recommend that the Audit Partner, PricewaterhouseCoopers, LLP:

         a. Ensure that samples used for Federal program compliance testing are drawn
            from a universe of awards as defined in OMB Circular A-133 for future single
            audits.

PWC Comments. PwC management believed that their sample for the FY 06 audit was
representative of the universe of research and development awards and appropriate for the audit
objectives. They used a dual purpose approach by using the same sample to test attributes from
both a financial statement and OMB Circular A-133 compliance perspective. Furthermore, they
stated that OMB Circular A-133, OMB Circular A-122, “Cost Principles for Non-Profit
Organizations,” and the 2006 Compliance Supplement guidance for the treatment of fixed price
contracts is not clearly defined. PwC management took corrective action to the recommendation
by excluding fixed price contracts from their sample for testing under OMB Circular A-133
while continuing to perform some testing on fixed price contracts for financial statement
purposes for the FY 2007 single audit. PwC management suggested that the DoD OIG work
with OMB to provide clarification on the exclusion of fixed price contracts for the 2008
Compliance Supplement.

OIG DoD Response. The corrective actions taken by PwC are responsive to the intent of the
recommendation. We have recognized the treatment of fixed price contracts to be a recurring
issue in our quality control reviews and have proposed written changes to the Office of
Management and Budget for the 2008 Compliance Supplement to provide further clarification on
the types of Federal awards subject to compliance testing.

         b. Perform audit procedures to determine the applicability and materiality of the
            Subrecipient Monitoring and Special Tests and Provisions compliance



                                               3
             requirements and perform the appropriate audit procedures related to
             internal controls and compliance for future single audits.

PWC Comments. PwC management believed that based on their inquiry procedures performed
none of the subcontractors met the criteria for subrecipient classification. For the FY 2007 audit,
PwC is in the process of performing testing of the subcontractor agreements to ensure the proper
classification of vendor versus subrecipient. If deemed to be subrecipients and the amount is
material, PwC will test LMI’s performance of subrecipient monitoring. PwC has also
recommended in their Report to Management that LMI consider enhanced procedures to
identify, monitor, and review their subrecipients.

PwC management plans to further enhance their documentation to clearly demonstrate the
robustness of audit procedures performed for the Special Tests and Provisions compliance
requirement in future audits.

OIG DoD Response. The corrective actions taken by PwC are responsive to the intent of the
recommendation. We commend PwC management for making recommendations to LMI
management to enhance their procedures to identify, monitor, and review their subrecipients.

         c. Provide the Department of Defense Office of Inspector General with the
            working paper documentation from the FY 2007 single audit that
            demonstrates corrective action taken to address the deficiencies related to
            sample selection and the Subrecipient Monitoring and Special Tests and
            Provisions compliance requirements.

PWC Comments. PwC management will send the workpapers for the FY 2007 audit for the
areas noted when the work is completed.

Finding C. Schedule of Expenditures of Federal Awards. LMI included internal project
numbers rather than the Federal awarding agency and pass-through entity assigned award
identification numbers and did not separately disclose fixed price contracts for the FY 06
Schedule of Expenditures of Federal Awards. OMB Circular A-133 requires that for Federal
awards expended for each individual Federal program or received from a pass-through entity,
that the identification number be included on the Schedule of Expenditures of Federal Awards.
LMI should have included the assigned award identification numbers instead of their internal
project tracking numbers so that Federal awarding agencies and pass-through entities can use the
Schedule of Expenditures of Federal Awards to monitor their awards. In addition, LMI should
separately disclose the fixed price contracts from the Federal awards since fixed price contracts
are not identified as Federal awards as previously defined. This will enable the auditors to
correctly identify their sampling universe when performing the compliance audit of the Federal
program.




                                                4
Recommendations, Management Comments, and
OIG 000 Response
   1. We I"ecommend that the Vice President of Finance, Logistics Management Institute:

           a, Prepare the Schedule of Expenditures of Fedel'al Awards according to the
              Office of Management and Budget A-133 requirements for future single
              audits. Specifically, the Schedule of Expenditures of Federal Awards should
              include the Federal awarding agency and pass-through entity assigned award
              identification numbers and separately identify fixed price contl'acts from
              Federal awards as defined in OMB Circular A-133.

LMI Comments, LMI conculTed with the finding and reconU11endation and incorporated the
recommendation in the preparation of the FY 2007 Schedule of Expenditures of Federal Awards.

Other Matters, The PwC auditors did not coordinate with the Defense Contract Audit Agency
(DCAA) when planning the FY 2006 audit. While the auditors reviewed 3 DCAA audit repOlts
obtained from LMI, DCAA issued 7 additional repOlts on floor checks, incurred costs, contract
audit closing statements, and quick closeout procedures relevant to the FY 2006 audit period.
Although the DCAA repOlts did not disclose any noncompliances, the PwC auditors should
coordinate all future OMB Circular A-133 audits with DCAA to identify any issues that may
impact audit planning to achieve a more efficient and effective audit.

        We appreciate the courtesies extended to the audit staff. For additional information on
this report, please contact Ms. Janet Stern at (703) 604-8750 (DSN 664-8750) or Ms. Sharon
Vasquez at (703) 604-5007 (DSN 664-5007). See Appendix C for the rep0l1 distribution.



                                              ~~-;> If. £'l~
                                             ~~;ntk~Davis
                                             Acting Assistant Inspector General
                                              for Audit Policy and Oversight




                                                5
Appendix A. Quality Control Review Process

Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. OMB Circular A-133 establishes policies that guide implementation of the
Single Audit Act and provides an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend $500,000 (for fiscal
years ending after December 31, 2003) are subject to the Single Audit Act and the audit
requirements in OMB Circular A-133 and therefore must have an annual single or program-
specific audit performed under Government Auditing Standards and submit a complete reporting
package to the Federal Audit Clearinghouse.

We reviewed the PwC, LLP audit of Logistics Management Institute FY 2006 and the reporting
package that was submitted to the Federal Audit Clearinghouse dated June 26, 2007 using the
1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the Guide). The
Guide applies to any single audit that is subject to the requirements of OMB Circular A-133 and
is the approved President’s Council on Integrity and Efficiency checklist used for performing the
quality control reviews. We performed the review from September 2007 through January 2008.
The review focused on the following qualitative aspects of the single audit:

             •    Qualification of Auditors,

             •    Independence,

             •    Due Professional Care,

             •    Planning and Supervision,

             •    Internal Control and Compliance testing,

             •    Schedule of Expenditures of Federal Awards, and

             •    Data Collection Form.




                                                6
Appendix B. Compliance Requirements
The PwC auditors determined that the following requirements are applicable to the single audit
of the Logistics Management Institute for the fiscal year ended September 30, 2006.


          Compliance Requirements                                Applicable                Not Applicable
Activities Allowed/Unallowed                                        X

Allowable Costs/Cost Principles                                        X

Cash Management                                                        X
Davis-Bacon Act                                                                                     X

Eligibility                                                                                         X

Equipment and Real Property Management                                 X

Matching, Level of Effort, Earmarking                                                               X

Period of Availability of Federal Funds                                X

Procurement, Suspension, and Debarment                                 X

Program Income                                                                                      X

Real Property Acquisition and Relocation                                                            X
Assistance
Reporting                                                              X

Subrecipient Monitoring *                                                                           X

Special Tests and Provisions                                           X




*
 Based on our analysis, we determined that the Subrecipient Monitoring compliance requirement is applicable to
Logistics Management Institute for FY 06.


                                                        7
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Contract Audit Agency
   Policy Quality Assurance Division Chief, Policy and Plans Directorate

Other Federal Agencies
Office of the Inspector General, Department of Agriculture
Office of the Inspector General, Department of Commerce
Office of the Inspector General, Department of Energy
Office of the Inspector General, Department of Health and Human Services
Office of the Inspector General, Department of Homeland Security
Office of the Inspector General, Department of Interior
Office of the Inspector General, Department of Labor
Office of the Inspector General, Department of Justice
Office of the Inspector General, Department of State
Office of the Inspector General, Department of Transportation
Office of the Inspector General, Department of the Treasury
Office of the Inspector General, Environmental Protection Agency
Office of the Inspector General, General Services Administration
Office of the Inspector General, National Aeronautics and Space Administration
Office of the Inspector General, United States Postal Service




                                              8
Non-Government Organizations
Board of Trustees, Logistics Management Institute
Vice President of Finance, Logistics Management Institute
Partner, PricewaterhouseCoopers, LLP
Audit Manager, PricewaterhouseCoopers, LLP

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs
   Committee on Oversight and Government Reform




                                              9
10
Logistics Management Institute Management
Comments




                     11
PricewaterhouseCoopers, LLP Management
Comments




                    12
13
14
15
